Audit of Nursing Homes and Denial of Payment Remedies - State of Ohio - October 1, 1999 Through September 30, 2001 - Ohio Department of Job and Family Services
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Nursing Homes and Denial of Payment Remedies - State of Ohio - October 1, 1999 Through September 30, 2001
- Ohio Department of Job and Family Services," (A-05-03-00037)
May 5, 2004
Complete
Text of Report is available in PDF format (259 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to ensure that the mandatory denial of payment remedy for substandard quality of care
was applied to nursing homes that were not in substantial compliance with the prescribed Medicaid participation requirements
and to evaluate whether State controls were adequate to prevent improper Medicaid payments to nursing homes under the denial
of payment remedy.  Our audit included denial of payment sanctions, which were in effect from October 1, 1999 to September
30, 2001.   We found that the State permitted improper Medicaid payments for new admissions totaling $30,223 ($17,796
Federal share) to sanctioned nursing homes.  We recommended a financial adjustment and implementation of additional
procedures, to ensure payments to providers are suspended timely.  The dollar amount of overpayments was adjusted
in response to auditee comments on the draft report.  The State agrees with the amount recommended for adjustment
and concurred with our recommendation for implementation of additional procedures.